                                       SOCIAL         SECURITY
                                       Office of the Inspector General
MEMORANDUM

Date:        FEB        8 2001                                               Refer To:


To          Larry   G. Massanari
            Regional    Commissioner

From'       Assistant Inspector General
             for Audit

Subject:    Audit of the Administrative Costs Claimed by the District of Columbia Disability
            Determination Division (A-13-98-91 003)


           The attached final report presents the results of our audit. Our objectives were to
           evaluate the District of Columbia Disability Determination Division's internal controls
           over the accounting and reporting of administrative costs and to determine if the costs
           claimed were allowable and allocable.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me at (410) 965-9700.




           Attachment

           cc:

           Kenneth D. Nibali, Associate Commissioner for Disability

           Thomas G. Staples, Associate Commissioner for Financial Policy and Operations

           Sandra Brown, District of Columbia Disability Determination Division

           Carolyn Graham, District of Columbia Department of Human Services

           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



 AUDIT OF THE ADMINISTRATIVE
    COSTS CLAIMED BY THE
    DISTRICT OF COLUMBIA
  DISABILITY DETERMINATION
           DIVISION

   February 2001   A-13-98-91003




AUDIT REPORT

                 EXECUTIVE SUMMARY


OBJECTIVE
The objectives of our audit of the District of Columbia (DC) Disability Determination
Division (DDD) were to:

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as of the draw down of Social Security Administration (SSA)
     funds;

•	   determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the period October 1, 1994 through
     September 30, 1997 were allowable and properly allocated; and

•	   determine if the aggregate of the SSA funds drawn down agreed with total
     expenditures for the Fiscal Years (FY) 1995 through 1997 disability determinations.

BACKGROUND

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (the Act). The program is designed to provide benefits to wage earners
and their families in the event the wage earner becomes disabled. Supplemental
Security Income (SSI) was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI, (title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. In carrying out its obligation, each State agency (SA)
is responsible for determining claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
a DDS budget. Once approved, the SA is allowed to withdraw Federal funds through
the U.S. Department of Health and Human Services’ Payment Management System or
the U.S. Department of the Treasury’s Automated Standard Application for Payments


                                             i
System to meet immediate program expenses. At the end of each quarter of the
Federal FY, each SA submits to SSA a "State Agency Report of Obligations for SSA
Disability Programs" (Form SSA-4513) to account for program disbursements and
unliquidated obligations. DC-DDD obligated costs of $11,556,929 on its Forms SSA-
4513 for the period October 1, 1994 through September 30, 1997.

Our methodology included reviewing applicable Federal laws, regulations, and SSA
policies and procedures, as well as the DC-DDD general policies and procedures
pertaining to administrative costs incurred and the drawing down of SSA funds. We
held discussions with representatives of the DC Department of Human Services (DC­
DHS), the DC Rehabilitation Services Administration (DC-RSA), DC-DDD, SSA’s
Philadelphia Regional Office of Disability (OD), and also representatives of an
independent public accounting firm.

We reviewed internal controls regarding accounting and financial reporting, and cash
management activities. We conducted our audit in accordance with generally accepted
government auditing standards. Our fieldwork was conducted from January 1998
through June 1998 at DC-DDD in Washington, DC and at SSA Headquarters in
Baltimore, Maryland. Additional fieldwork was performed from November 1999 through
February 2000.

RESULTS OF REVIEW

We reviewed the internal controls and administrative costs for personnel, medical
services, fringe benefits, travel, equipment and other nonpersonnel costs. We also
reviewed the calculation of indirect costs. Based on the results of our audit, we found
the following conditions:

•   UNSUPPORTED COSTS
    - Invoices for vendor payments missing
    - Documentation for FY 1997 lease payment was not provided

•   COSTS CLAIMED FOR NON-DDD WORK
    - Vendor Costs not appropriately distributed
    - Employees not attributable to DC-DDD claimed

•   DRAWDOWNS EXCEEDED DISBURSEMENTS

•   INTERNAL CONTROL WEAKNESSES
    - Deficiencies existing in records supporting personnel costs
    - Medical Evidence Records (MER) payments not in compliance with
       DC-DDD policy
    - Insufficient documentation for indirect costs
    - Missing Contract Files and Purchase Orders
    - Missing Cancelled Checks



                                            ii
CONCLUSIONS AND RECOMMENDATIONS

The results of our audit disclosed that not all DC-DDD claimed costs were supported by
documentation. Costs were also claimed for work not related to SSA’s disability
program. In FY 1996, drawdowns exceeded disbursements. We concluded that
internal control weaknesses existed regarding the maintenance of central records and
compliance with record keeping procedures. These conditions impacted the DC-DDD’s
ability to ensure accurate reporting of its financial position for the audit period. At the
end of our fieldwork, we noted significant efforts to improve internal controls and
modifications to existing accounting systems, which if properly implemented should
improve record keeping and reporting in future accounting periods.

Based on the information obtained from SSA, DC-DDD and tests we performed on
personnel costs, fiscal reporting, medical services, cash management, indirect costs,
and nonpersonnel costs, we recommend that SSA’s OD:

•	 Instruct DC-DDD to reimburse SSA for the $90,769 of nonpersonnel costs DC-DDD
   could not support with vendor invoices, receipts or similar documentation.

•	 Instruct DC-DDD to reimburse SSA for the $8,958 of unsupported FY 1997 lease
   payments.

•	 Instruct DC-DDD to reimburse SSA for the $28,103 of non-SSA expenses and to
   improve its system to prevent this from occurring in the future.

•	 Instruct DC-DDD to reimburse SSA $35,589 for the costs of those employees
   charged to the wrong account and the related indirect costs of $13,523 or provide
   documentation that verify costs were removed. Instruct DC-DDD and DC-DHS to
   strengthen controls to prevent employees from being charged to the wrong account
   or department.

•   Reduce DC-DDD FY 1996 drawdowns by $49,799.

•	 Instruct DC-DDD and DC-DHS to improve their record-retention policies and
   practices to comply with SSA’s Program Operations Manual System (POMS).
   POMS states that records should be kept at least 3 years or until audit issues are
   resolved. Leave slips and sign-in sheets should be retained to comply with this
   regulation. Additionally, contract files, purchase orders, and checks should be
   retained to comply with this regulation.

•	 Instruct DC-DDD to implement procedures to ensure that future Medical Evidence of
   Record (MER) payments are paid according to DC-DDD policy.

•	 Instruct DC-DDD to develop policies and procedures to record indirect costs in its
   accounting system.



                                             iii
•	 Instruct DC-DDD to review policy concerning invoices going directly to DC-RSA
   without being reviewed by DC-DDD.

AGENCY COMMENTS

In response to our draft audit report, SSA’s regional office and DC-DDD agreed with
certain recommendations and promised repayment of funds, provided additional
information for certain recommendations and indicated additional internal review for
other recommendations. (See Appendix C for SSA regional office and DC-DDD
comments to our draft report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We concur with the actions being taken by SSA‘s regional office and the SA in their
efforts to identify missing documentation. These actions have resulted in a reduction of
the amount of unsupported costs originally reported, and the related amount that DC­
DDD promised to pay. Also, as indicated by the SA, the amount of excess draw downs
identified in our report will be returned to SSA.

In regards to our internal control issue related to records supporting personnel costs, we
would appreciate the SA supplying the Regional Commissioner's office with official time
records and leave slips for the sampled cases audited.

Subsequent to the issuance of our draft report, DC-DDD provided additional information
that addressed recommendations eight and nine. We consider recommendation number
eight closed because DC-DDD provided adequate evidence of policies and procedures
for documenting indirect costs. In addition, we consider recommendation number nine
closed because procedures now require that all vendor invoices go directly to DC-DDD
and are then forwarded to DC-RSA for further payment processing.




                                            iv
                            TABLE OF CONTENTS

                                                                                                                                  Page

EXECUTIVE SUMMARY ....................................................................................................i


INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................4


     UNSUPPORTED COSTS ...........................................................................................4

     - Invoices Missing for Vendor Payments ................................................................. 4

     - Documentation for the FY 1997 Office Lease Payment Was Not

        Provided.......................................................................................................................5


     COSTS CLAIMED FOR NON-DDD WORK ..............................................................5

     - Vendor Costs Not Appropriately Distributed......................................................... 6

     - Employee Costs Not Attributable to DC-DDD Claims...........................................6


     DRAWDOWNS EXCEEDED DISBURSEMENTS................................................... 7


     INTERNAL CONTROL WEAKNESSES....................................................................8

     - Deficiencies Existing in Records Supporting Personnel Costs............................8

     - MER Payments Not in Compliance with DC-DDD Policy ....................................8

     - Insufficient Documentation for Indirect Costs.........................................................9

     - Missing Contract Files and Purchase Orders .........................................................9

     - Missing Cancelled Checks.......................................................................................10


CONCLUSIONS AND RECOMMENDATIONS ...........................................................11


APPENDICES

APPENDIX A – Obligations Reported/Allowed the District of Columbia Disability
             Determination Division for Fiscal Years 1995 through 1997 as of
             September 30, 1997

APPENDIX B – Questioned Costs for Fiscal Years 1995 through 1997


APPENDIX C – SSA and DC-DDD Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                             INTRODUCTION


OBJECTIVE

The objectives of our audit of the District of Columbia (DC) Disability Determination
Division (DDD) were to:

•	     evaluate internal controls over the accounting and reporting of the administrative
       costs claimed, as well as of the draw down of Social Security Administration (SSA)
       funds;

•	     determine whether costs claimed on the State Agency Report of Obligations for
       SSA Disability Programs (Form SSA-4513) for the period October 1, 1994 through
       September 30, 1997, were allowable and properly allocated; and

•	     determine if the aggregate of the SSA funds drawn down agreed with total
       expenditures for the Fiscal Years (FY) 1995 through 1997 disability determinations.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (the Act). The program is designed to provide benefits to wage earners
and their families in the event the wage earner becomes disabled. Supplemental
Security Income (SSI) was created as a result of the Social Security Amendments of
19721 with an effective date of January 1, 1974. SSI (title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind or disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. In carrying out its obligation, each State agency (SA)
is responsible for determining claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
a DDS budget. Once approved, the SA is allowed to withdraw Federal funds through
the U.S. Department of Health and Human Services’ (HHS) Payment Management
1
     Public Law No. 92-603


                                              1

System (PMS) or the U.S. Department of the Treasury’s (Treasury) Automated
Standard Application for Payments System to meet immediate program expenses. At
the end of each quarter of the Federal FY, each SA submits to SSA a "State Agency
Report of Obligations for SSA Disability Programs" (Form SSA-4513) to account for
program disbursements and unliquidated obligations.

HHS’ Division of Payment Management is responsible for operating this centralized
payment system. Cash drawn from the Treasury to pay for program expenditures is to
be drawn according to Federal regulations 2 and in accordance with intergovernmental
agreements entered into by Treasury and States under the authority of the Cash
Management Improvement Act (CMIA)3. An advance or reimbursement for costs under
the program must be made according to the Office of Management and Budget (OMB)
guidance 4.

DC-DDD’s financial reporting functions are primarily the responsibility of the
DC Department of Human Services (DHS). Allocation of indirect costs is done
according to a DC-DHS indirect cost agreement that is approved by HHS.

DC-DDD is a component within the DC-DHS’ Rehabilitation Services Administration
(RSA). DC-DDD’s sole function is processing SSA disability determinations. DC-DDD
maintains one location and employs approximately 27 personnel. DC-DDD obligated
costs of $11,556,929 for disability determinations for the audited FYs 1995 through
1997.

SCOPE AND METHODOLOGY

To accomplish the audit objectives, we obtained sufficient evidence to evaluate the
financial transactions to determine whether they are allowable under OMB Circular A-87
and appropriate as defined by SSA's Program Operations Manual System (POMS).
Furthermore, we:

•	 reviewed applicable Federal regulations, pertinent parts of the POMS DI 39500
   “DDS Fiscal and Administrative Management” and other instructions pertaining to
   administrative costs incurred by DC-DDD and the drawdown of SSA funds covered
   by the CMIA agreement;

•	 interviewed DC-DDD personnel, Independent Public Accountants, DC-DHS
   personnel, DC-RSA personnel, and SSA's staff at the Philadelphia Regional Office
   of Disability (OD) and Headquarters OD;

•     reviewed DC-DDD’s general policies and procedures;


2
    31 CFR 205

3
     Public Law No. 101-453

4
    OMB Circular A-87, “Cost Principles for State, Local, and Indian Tribal Governments.”




                                                      2

•	 reviewed and tested internal controls regarding accounting and financial reporting,
   and cash management activities;

•	 performed an examination of the administrative expenditures (personnel, medical
   service, indirect and all other nonpersonnel costs) incurred and claimed by DC-DDD
   for the period October 1, 1994 through September 30, 1997;

•	 reconciled the official State accounting records to the administrative costs reported
   by DC-DDD to SSA on the Form SSA-4513 report for the period October 1, 1994
   through September 30, 1997; and

•	 compared the amount of SSA funds drawn for support of program operations to the
   allowable expenditures reported on the SSA-4513.

We tested documents supporting the $11,263,284 of costs claimed and disbursed by
DC-DDD for the period October 1, 1994 through September 30, 1997, as reported to
SSA as of September 30, 1997.

We conducted our audit in accordance with generally accepted government auditing
standards. The fieldwork was conducted from January 1998 through June 1998 and
November 1999 through February 2000 at DC-DHS and DC-RSA in Washington, DC
and at SSA Headquarters in Baltimore, Maryland. The entity audited was the Office of
Disability within the Office of the Deputy Commissioner for Disability and Income
Security Programs.




                                            3

                     RESULTS OF REVIEW


With the exception of the following findings, DC-DDD has complied with financial
requirements of SSA’s disability determination service program and other applicable
Federal laws, regulations, policies, and procedures.

UNSUPPORTED COSTS
DC-DDD could not provide us with documentation to substantiate nonpersonnel costs of
$99,727 that were claimed. SSA regulations 5 require that each SA establish and
maintain records that support their reported financial costs. Procedures provided in
POMS 6 define authorized obligations as commitments to pay for goods or services
ordered, and that such obligations be supported by valid purchase orders or binding
agreements. The undocumented costs involve vendor and lease amounts of
$90,769 and $8,958, respectively.

Invoices Missing for Vendor Payments

We selected a judgmental sample of 266 nonpersonnel transactions. Of this sample,
DC-DDD was unable to provide the invoices for 38 transactions totaling $90,769. As a
result of not being able to examine these invoices, we could not determine whether
payments were for SSA disability program related purposes.

For some nonpersonnel transactions, we found supporting documentation at the
DC-DDD, but not at DC-DHS, the component which maintained the accounting system.
The documentation showed that the costs were appropriate. However, in other
instances, the lack of certain documentation indicated a problem with DC-DDD and DC­
DHS’ accounting system. We could not verify that transactions were processed
correctly since supporting documentation was not maintained by DC-DHS and retained
by DC-DDD. Therefore, we could not conclude with certainty whether these
transactions actually occurred.




5
    20 CFR §§ 404.1625(a) and 416.1025(a)
6
    POMS; DI 39506.803


                                            4

Below is the breakdown of questioned nonpersonnel costs, including travel costs.

                                            No Supporting
                                Year        Documentation
                                1995            $57,847
                                1996             22,609
                                1997                10,313

                                Totals             $90,769

During our interviews with accounting personnel, they could not provide any information
as to why these invoices were missing. We observed that the record keeping practices
were poor, resulting in the loss of documentation to support claimed costs.

DC-DDD accounting staff indicated that all invoices appear to have gone through
DC-DDD to DC-RSA and DC-DHS. The DC-DDD accounting technician indicated
concern that payments may have been made for activity not related to DC-DDD
operations.

As a result of this problem, DC-DDD claimed $90,769 of nonpersonnel costs that it
could not support.

Documentation for the FY 1997 Office Lease Payment Was Not Provided

Our sample selection also included a transaction for the FY 1997 lease payment of
$384,000. DC-DDD could not provide support for $8,958 of the lease payment. The
Office of the Inspector General (OIG) recognizes the office space has a cost, but we
could not verify the entire amount paid.


COSTS CLAIMED FOR NON-DDD WORK

DC-DDD claimed costs for work that was not incurred as part of the SSA disability
program. Regulations 7 provide that States be reimbursed for expenses incurred for
program purposes.

Vendor Costs Not Appropriately Distributed

During our review of vendor invoices, we observed batches of invoices that were
charged in total to the DC-DDD which included work that was not for the DC-DDD. We




7
    20 CFR §§ 404.1626(a) and 416.1026(a)


                                              5

learned that these vendors performed work for a number of DC agencies. We
confirmed with DC-DDD staff that the work done was not for DC-DDD and therefore, not
for SSA disability program purposes.

Below is the FY breakdown of questioned nonpersonnel costs (including travel costs).

                                    Costs Not Attributed to
                        Year              DDD Work
                        1995                 $12,503
                        1996                   7,314
                        1997                   8,286

                        Totals                  $28,103

During our interviews with accounting personnel, they could not provide any information
as to why the costs associated with these invoices were not appropriately distributed to
the SAs to which the costs were actually incurred. We observed that record keeping
practices were not thorough enough to provide for appropriate distribution of the costs
among the agencies.

Employee Costs Not Attributable to DC-DDD Claims

Personnel costs for two employees were erroneously claimed by DC-DDD. These

employees did not perform any work for DC-DDD. During our review of personnel files

and interviews for the purpose of ensuring employee costs were appropriately charged,

employees revealed that these two employees performed duties for other DC agencies.

The costs claimed amounted to $35,589 for the workers’ salaries and $13,523 for fringe

benefits. The inappropriate charges were made from October 15, 1994 to

November 26, 1994 for one employee; and from December 9, 1995 to

November 23, 1996 for the other employee.


We did not determine the exact cause of this problem. However, the DC-DDD

timekeeper said that a request had been made by DC-DDD to the DC-DHS payroll

department for removal of these costs. The timekeeper also stated that DC-DDD was

informed that an adjustment had been posted and the personnel costs of the two

workers had been removed from DC-DDD personnel costs. However, DC-DDD could

not provide documentation to support any corrective action taken to remove the

erroneous costs from DC-DDD records.





                                           6

DRAWDOWNS EXCEEDED DISBURSEMENTS

DC-DDD FY 1996 PMS reports showed drawdowns exceeded reported disbursements
by $49,799. The figures are computed as follows:

                Comparison of Drawdowns to Reported Disbursements

                  PMS                PMS             Cash         SSA-4513        Excess
              Authorizations      Drawdowns         Available   Disbursements   Drawdowns
FY 1996       $3,636,162          $3,636,162                     $3,586,363      $49,799

Federal regulations 8 require that States shall request funds only after they have paid
expenses with their own funds for program purposes and that states shall limit the
amount of funds transferred to the minimum required to meet actual immediate cash
needs. DC-DDD drew down funds in excess of their reported disbursements for
FY 1996. Receiving funds with no immediate need is contrary to these regulations.9
POMS procedures 10 further state that all expenditures are deemed to be necessary if
they are incurred for the disability determination process, in accordance with standards
and other written guidelines of the Commissioner, approved by SSA, and within the
limits of the approved DC-DDD budget. DC-DHS staff was unaware of the excess
drawdowns. As a result, DC-DDD needs to reduce FY 1996 drawdowns by $49,799.

INTERNAL CONTROL WEAKNESSES

During the course of our review, we observed several internal control weaknesses.
While these weaknesses do not affect the amount SSA reimbursed the DC-DDD,
correction of these weaknesses could improve the agency’s ability to accurately report
its financial status.

Deficiencies Existing In Records Supporting Personnel Costs

Personnel costs reported for the period of October through December 1994 were
$336,931 including $162,289 of related indirect costs. Not all sign-in sheets could be
accounted for during the period audited. In addition, discrepancies existed between
leave hours recorded on sign-in sheets and time and attendance reports used for
payroll purposes. This condition was even further complicated by the inability of DC­
DDD to provide employee leave slips for review. As a result, we had no assurance that
hours reported on time and attendance records were actually worked for the period of
October through December 1994. DC-DDD made an extensive search for these
documents, but could not provide the sign-in sheets. Nor, could we conclude that leave
balances maintained by DC-DDD were correct. POMS procedures require that the SA


8
   31 CFR 205.7

9
   20 CFR §§ 404.1626(a) and 416.1026(a)

10
    POMS DI 39506.212



                                               7

retain financial records and supporting documents until Federal audit findings are
resolved.11

It is apparent that DC-DDD performed work during this period, but the substantiation of
workhours is in question without correctly completed sign-in sheets. The lack of internal
controls contributed to inadequate record keeping and the eventual loss of
documentation needed to assess Agency personnel activities.

MER Payments Not in Compliance With DC-DDD Policy

DC-DDD made incorrect MER payments in 127 of 150 instances reviewed. The MER
payments were not paid in accordance with DC-DDD policy.

DC-DDD administrative instruction 93-03 states the maximum MER payment scale as
follows:

     •   $25 for Hospitals and Doctors/Clinics that respond in 20 days or less;
     •   $15 for Doctor/Clinics with no narrative reports that respond in 20 days or less;
     •   $10 for Hospitals and Doctors/Clinics that respond in 21 to 60 days; and
     •   $ 0 for Hospitals and Doctors/Clinics that respond in 61 days or greater.

DC-DDD made payments in excess of the above payment scale.

Excess MER payments occurred due to the lack of internal control over reviewing
payments made by DC-DDD. The high volume of payments for processing and the
small number of staff available to process payments also contributed to this condition.
For example, Examination Clerks do not verify the length of time it takes to receive each
MER from the medical providers.

Although the impact of the inaccuracies is minimal, DC-DDD accounting practices
allowed excessive MER payments that were not paid according to DC-DDD policy.

Insufficient Documentation For Indirect Costs

DC-DDD did not adequately document the indirect cost obligation through its DC
Financial Management Systems accounting and statistical records.

POMS procedures require that records must support all obligations; and through its
accounting and statistical records, provide support for all obligations incurred in
connection with making disability determinations 12. Additionally, POMS procedures
state that the State's accounting records and supporting documents must permit
verification by Federal audit13. As a result of our inquiry, DC-DDD showed us how the

11
     POMS DI 39509.005 C.1
12
     POMS DI 39509.005 B.1.a.
13
     Ibid.


                                              8

indirect amount could be derived from several reports, however, they could not produce
a report that identified the specific indirect costs submitted to SSA.

In our opinion, this problem occurred because of a lack of policies and procedures for
documenting indirect costs. This condition can ultimately produce inaccurate financial
records.

Missing Contract Files And Purchase Orders

DC-DDD could not provide some of the contract files and purchase orders requested in
order for us to review DC-DDD’s contracting and purchasing procedures.

POMS procedures state that supplies, equipment, and other contractual service
obligations, including orders placed and contracts awarded should be supported by a
valid purchase order or other binding agreement for goods or services. 14 We attribute
the missing contract files and purchase orders to previously cited weaknesses in
internal controls, specifically ineffective record keeping practices.

As a result we are not able to comment on the adequacy of DC-DDD’s contracting and
purchasing procedures.

Missing Cancelled Checks

DC-DDD could not provide all requested cancelled checks. We specifically requested
cancelled checks because of a concern about vendor payments. POMS procedures 15
state that collected data are used to appraise all phases of the program and are
designed to serve a number of specific objectives, such as supporting the disbursement
of funds. Cancelled checks are a form of documentation that supports the
disbursement of funds.

We believe, the cause of this problem is poor internal control procedures and poor
record keeping. Since the DC Government could not find some of the cancelled checks
that were requested, or any other document that supported payment to the vendors, we
had no assurance that such expenses were paid by the SA or that additional liabilities
were actually incurred.




14
     POMS DI 39506.809 D.4.
15
     POMS DI 39509.001 D.3.


                                           9

     CONCLUSIONS AND RECOMMENDATIONS


The results of our audit disclosed that not all DC-DDD claimed costs were supported by
documentation. Costs were also claimed for work not related to SSA’s disability
program. In FY 1996, drawdowns exceeded disbursements. We concluded that
internal control weaknesses existed regarding the maintenance of central records and
compliance with record keeping procedures. These conditions impacted DC-DDD’s
ability to ensure accurate reporting of its financial position under the audit period. At the
end of our fieldwork, we noted significant efforts to improve internal controls and
modifications to accounting systems, which if properly implemented should improve
accurate record keeping and reporting in future accounting periods.

Based on the information obtained from SSA, DC-DDD and the tests we performed, we
recommend that SSA’s OD:

1.	 Instruct DC-DDD to reimburse SSA for the $90,769 of nonpersonnel costs DC-DDD
    could not support with vendor invoices, receipts or similar documentation.

2.	 Instruct DC-DDD to reimburse SSA for the $8,958 of unsupported FY 1997 lease
    payments.

3.	 Instruct DC-DDD to reimburse SSA for the $28,103 of non-SSA expenses and to
    improve its system to prevent this from occurring in the future.

4.	 Instruct DC-DDD to reimburse SSA $35,589 for the costs of those employees
    charged to the wrong account and the related indirect costs of $13,523 or provide
    documentation that verify costs were removed. Instruct DC-DDD and DC-DHS to
    strengthen controls to prevent employees from being charged to the wrong account
    or department.

5. Reduce DC-DDD FY 1996 drawdowns by $49,799.

6.	 Instruct DC-DDD and DC-DHS to improve their record-retention policies and
    practices to comply with SSA’s POMS. POMS states that records should be kept at
    least 3 years or until audit issues are resolved. Leave slips and sign-in sheets
    should be retained to comply with this regulation. Additionally, contract files,
    purchase orders, and cancelled checks should be retained to comply with this
    regulation.

7.	 Instruct DC-DDD to implement procedures to ensure that future MER payments are
    paid according to DC-DDD policy.




                                             10

8.	 Instruct DC-DDD to develop policies and procedures to record indirect costs in its
    accounting system.

9.	 Instruct DC-DDD to review policy concerning invoices going directly to RSA without
    being reviewed by DC-DDD.

AGENCY COMMENTS

In response to our draft audit report, SSA regional office and DC-DDD agreed with
certain recommendations and promised repayment of funds, provided additional
information for certain recommendations and indicated additional internal review for
other recommendations. (See Appendix C for SSA regional office and DC-DDD
comments to our draft report).

OIG RESPONSE

We concur with the actions being taken by SSA‘s regional office and the SA in their
effort to identify missing documentation. These actions have resulted in a reduction of
the amount of unsupported costs originally reported, and the related amount that DC­
DDD promised to pay. Also, as indicated by the SA, the amount of excess draw downs
identified in our report will be returned to SSA.

In regards to our internal control issue related to records supporting personnel costs, we
would appreciate the SA supplying the Regional Commissioner's office with official time
records and leave slips for the sampled cases audited.

Subsequent to the issuance of our draft report, DC-DDD provided additional information
that addressed recommendations eight and nine. We consider recommendation number
eight closed because DC-DDD provided adequate evidence of policies and procedures
for documenting indirect costs. In addition, we consider recommendation number nine
closed because procedures now require that all vendor invoices go directly to DC-DDD
and are then forwarded to DC-RSA for further payment processing.




                                           11

APPENDICES

                                       APPENDIX A


OBLIGATIONS REPORTED/ALLOWED THE DISTRICT OF
  COLUMBIA DISABILITY DETERMINATION DIVISION
   FOR FISCAL YEARS 1995 THROUGH 1997 AS OF
              SEPTEMBER 30, 1997
                                                                                                                                                             APPENDIX A


         OBLIGATIONS REPORTED/ALLOWED THE DISTRICT OF COLUMBIA

                     DISABILITY DETERMINATION DIVISION

        FOR FISCAL YEARS 1995 THROUGH 1997 AS OF SEPTEMBER 30, 1997


                              TOTAL OBLIGATIONS                              UNLIQUIDATED OBLIGATIONS                                 DISBURSEMENTS
                                         NET                                                NET                                                NET
                                     RECOMMENDED                                        RECOMMENDED                                        RECOMMENDED
  COSTS             REPORTED         ADJUSTMENTS           ALLOWABLE       REPORTED     ADJUSTMENTS       ALLOWABLE         REPORTED       ADJUSTMENTS        ALLOWABLE
PERSONNEL             $4,998,105          ($35,589)1          $4,962,516     $111,084             $0         $111,084         $4,887,021        ($35,589)       $4,851,432
MEDICAL                  3,904,392                             3,904,392      159,456                 0        159,456         3,744,936                         3,744,936
                                                       2
INDIRECT                 1,638,952         (13,523)            1,625,429            0                 0                0       1,638,952          (13,523)       1,625,429
                                                       3
ALL OTHER                1,015,480         (127,830)             887,650       23,105                 0            23,105       992,375          (127,830)        864,545
TOTAL                 $11,556,929         $176,942           $11,379,987     $293,645                 0      $293,645       $11,263,284          $176,942      $11,086,342


            Note: Minor differences are due to rounding




            1
                See Page 6 of report for explanation of questioned costs.
            2
                See Page 6 of report for explanation of questioned costs.
            3
                The amount breakdowns as follows:
                  $ 8,958 See Page 5 of the report for explanation of the questioned costs;

                  $ 90,769 See Page 4 of the report and Appendix B for explanation of the questioned costs; and

                  $ 28,103 See Page 6 of the report and Appendix B for explanation of the questioned costs.

B-2

                             APPENDIX B



        QUESTIONED COSTS

FOR FISCAL YEARS 1995 THROUGH 1997

                                                                                               APPENDIX B



                     QUESTIONED COSTS

             FOR FISCAL YEARS 1995 THROUGH 1997


                                    FISCAL YEAR (FY) 1995


                                                                                 Costs not     Costs for Non-
OBJ       Trans. ID     Enc. Ref.    Vendor Name                  Vendor ID
                                                                                 Supported      DDD Work
402   VTREJAR05069                   Sandra Brown                                      $380
402   VMSEJAR13339                   American Airlines            2373476744           $780
402   VMSEJAR13350                   TWA, Inc.                    2006761700           $302
408   VOCEJAR03588    CNTEJA590279   Dr. G. Nachbahr             00043428200          $6,361
408   VOCEJAR04281    ORDEJA70340    Patricia Cott Ph.D.         80526968500          $9,850
201   VOCEJAP33776    ORDEJA483255   Wang Lab, Inc.              00101816788          $3,779
405   VOCEJAP33772    ORDEJA485513   Wang Lab, Inc.              00101816788          $3,660
409   VOCEJAR00512    ORDEJA486107   Computer Temp, Inc.         60415201700                       $1,512
201   VOCEJAR00827    OFEEJA59570N   U.S. GSA                    00000001800           $512
409   VOCEJAR03977    ORDEJA570246   Dix Hill Group, Inc.        80134270000          $9,701
409   VOCEJAR04339    ORDEJA570328   Superior Couriers           09635739788          $6,000
411   VOCEJAR05249    ORDEJA571029   Toucan Business Forms       03879258600          $4,977
409   VMSEJAX51994                   Kelly Temporary Services    00695831800          $2,500
201   VIDEJAS95044                                                                    $1,969
409   VMSEJAR12487                   The Staff Connection        87722462688                       $1,104
409   VMSEJAX52861                   Kelly Temporary Services    00695831888          $7,076
409   VOCEJAR15693    CNTEJA595540   Dix Hill Group, Inc.        80134270000                       $9,887


                                                                FY 1995 Totals      $57,847       $12,503



                                                   B-1

                    QUESTIONED COSTS

            FOR FISCAL YEARS 1995 THROUGH 1997


                                                 FY 1996


OBJ     Trans. ID       Enc. Ref.           Vendor Name           Vendor ID      Costs not       Costs for
                                                                                 Supported     Non-DDD Work
402   VTREJAB03599                US Air Lines                                         $321
402   VTREJAB03670                American Airlines                                    $409
402   VTREJAB11598                Marilyn Griffin                                      $253
409   VOCEJAB02672   CNTEJA695975 Computer Temp, Inc.            60415201700          $6,374
409   VOCEJAB03117   CNTEJA695540 Dix Hill Group, Inc.           80134270000          $7,501
201   VOCEJAB02915   OFEEJA69511N U.S. GSA                       00000001800           $721
409   VOCEJAB04151   CNTEJA695975 Computer Temp, Inc.            60415201700          $2,052
409   VOCEJAB04170   CNTEJA695975 Computer Temp, Inc.            60415201700          $4,052
409   VOCEJAB10303   CNTEJA696323 Dix Hill Group, Inc.           60415201700                          $1,263
409   VOCEJAB11640   CNTEJA696323 Dix Hill Group, Inc.           60415201700                          $1,601
409   VOCEJAB14478   CNTEJA696323 Dix Hill Group, Inc.           60415201700                          $4,450
201   VOCEJAB14596   ORDEJA662452 Federal Sales Service, Inc.    07793750644           $926

                                                                FY 1996 Totals      $22,609          $7,314




                                                     B-2

                   QUESTIONED COSTS

           FOR FISCAL YEARS 1995 THROUGH 1997


                                                FY 1997

                                                                              Costs not        Costs for
OBJ      Trans. ID        Enc. Ref.        Vendor Name          Vendor ID
                                                                              Supported      Non-DDD Work
401   VOCEJAB17841     ORDEJA662255 Metro                       04885542300         $1,000
402   VTREJACS4455                  M-C Hart-Wright                                                   $289
408   VOCEJACS1753     CNTEJA796294 Patricia Cott, Ph.D         80526968500         $5,914
201   VOCEJAB17840     OFEEJA69651N U.S. GSA                    00000001800          $428
411   VIDEJA707324     OIDEJABR9731 D.C. Dept. of Corrections                        $505
411   VIDEJA708317     OIDEJABR9731 D.C. Dept. of Corrections                        $246
409   VOCEJACS0372                  Dix Hill Group, Inc.        80134270000                         $1,097
409   VOCEJACS0373                  Dix Hill Group, Inc.        80134270000                         $1,079
409   VOCEJACS1234                  Dix Hill Group, Inc.        80134270000                         $1,063
409   VOCEJACS1260                  Dix Hill Group, Inc.        80134270000                          $959
409   VMSEJACS1549                  Dix Hill Group, Inc.        80134270000                         $1,973
409   VMSEJACS1527                  Dix Hill Group, Inc.        80134270000                         $1,826
411   VIDEJA705349     OIDEJABR9731 D.C. Dept. of Corrections                        $520
411   VIDEJA705393     OIDEJABR9731 D.C. Dept. of Corrections                       $1,700

      FY 1997 Totals                                                               $10,313          $8,286

                       Grand Totals                                                $90,769         $28,103




                                                    B-3

                       APPENDIX C



SSA AND DC-DDD COMMENTS

                       APPENDIX D



       OIG CONTACTS

AND STAFF ACKNOWLEDGMENTS

                                                                             APPENDIX D



                OIG CONTACTS

         AND STAFF ACKNOWLEDGMENTS


OIG Contacts

Frederick C. Nordhoff, Division Director, Financial Management and
    Performance Monitoring Audits, (410) 966-6676

Carl K. Markowitz, Audit Manager, (410) 965-9742

Acknowledgments

In addition to those named above:


  Phillip Rogofsky, Auditor-in-Charge

  John Beacham, Senior Auditor

  Suzanne Valett, Senior Auditor

  Katherine Baker, Auditor

  Cheryl Robinson, Writer-Editor


For additional copies of this report, please contact the Office of the Inspector General’s

Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number A-

13-98-91003.

                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security 
                                                1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders 
                                                       25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
 Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
              Overview of the Office of the Inspector General



                                     Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                            Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from the Agency, as well as conducting
employee investigations within OIG. Finally, OEO administers OIG’s public affairs,
media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                          Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
